     Department of Homeland Security

     ��������������������������



      CBP’s and USCG’s Controls Over Exports 

          Related to Foreign Military Sales 





OIG-13-119                           September 2013

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov
 
                                       SEP 09 2013 
 
MEMORANDUM FOR:	              Susan T. Mitchell 
                              Acting Assistant Commissioner 
                              Office of Field Operations 
                              U.S. Customs and Border Protection 
 
                              Rear Admiral Bruce D. Baffer 
                              Assistant Commandant for Acquisitions  
                              United States Coast Guard 
 
FROM:	                        Anne L. Richards 
                              Assistant Inspector General for Audits 
 
SUBJECT:	                     CBP’s and USCG’s Controls Over Exports Related to  
                              Foreign Military Sales 
 
Attached for your action is our final report, CBP’s and USCG’s Controls Over Exports Related 
to Foreign Military Sales.  We incorporated the formal comments from U.S. Customs and 
Border Protection and the United States Coast Guard in the final report.  
 
The report contains three recommendations aimed at improving U.S. Customs and Border 
Protection’s (CBP) and the United States Coast Guard’s (USCG) Foreign Military Sales 
program’s effectiveness.  Your offices concurred with the recommendations.  Based on 
information provided in your response to the draft report, we consider the 
recommendations resolved.  Once your offices have fully implemented the 
recommendations, please submit a formal closeout letter to us within 30 days so that we 
may close the recommendations.  The request should be accompanied by evidence of 
completion of agreed‐upon corrective actions.  
 
Please email a signed PDF copy of all responses and closeout requests to 
OIGAuditsFollowup@oig.dhs.gov.  
 
Consistent with our responsibility under the Inspector General Act, we will provide copies of 
our report to appropriate congressional committees with oversight and appropriation 
responsibility over the Department of Homeland Security.  We will post the report on our 
website for public dissemination. 
 
Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant 
Inspector General for Audits, at (202) 254‐4100. 
 
Attachment 
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1 


   Background ........................................................................................................................ 2 


   Results of Review ................................................................................................................ 3 


              CBP’s FMS-related Export Verification Process ..................................................... 4 

              Recommendation ................................................................................................... 5 

              Management Comments and OIG Analysis ........................................................... 5 


              Guidance and Training for CBP Officers ................................................................. 6 

              Recommendation ................................................................................................... 6 

              Management Comments and OIG Analysis ........................................................... 7 


              The USCG’s FMS Contracts and Access to AES ...................................................... 7 

              Recommendation ................................................................................................... 8 

              Management Comments and OIG Analysis ........................................................... 8 


   Appendixes
              Appendix A:          Objectives, Scope, and Methodology .............................................. 9 

              Appendix B:          Management Comments to the Draft Report ............................... 11 

              Appendix C:          Major Contributors to This Report ................................................ 14 

              Appendix D:          Report Distribution ........................................................................ 15 


   Abbreviations
              AES                   Automated Export System
              CBP                   U.S. Customs and Border Protection
              DHS                   Department of Homeland Security
              DoD                   Department of Defense
              FMS                   Foreign Military Sales
              FY                    fiscal year
              GAO                   U.S. Government Accountability Office
              IPO                   International Programs Office (U.S. Navy)
              JFK                   John F. Kennedy International Airport
              LOA                   Letter of Offer and Acceptance
              OFO                   Office of Field Operations (CBP)
              OIG                   Office of Inspector General
              USCG                  United States Coast Guard

www.oig.dhs.gov                                                                                                                OIG-13-119
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Within the Department of Homeland Security, under the Foreign Military Sales program,
   the United States Coast Guard (USCG) procures and provides defense-related articles
   and services to foreign governments, and U.S. Customs and Border Protection (CBP)
   controls exports of articles related to Foreign Military Sales. In February 2013, the U.S.
   Government Accountability Office deemed Foreign Military Sales a high risk area for the
   Federal Government. We performed this audit to determine whether CBP and the
   USCG have adequate controls over the Foreign Military Sales export process.

   CBP and the USCG need to improve their controls over exports related to Foreign
   Military Sales. CBP has a process to assess the risk associated with exports and target
   shipments for physical inspection. However, during this process officers rely on
   potentially unverified and inaccurate information that shippers submit to an export
   database. Additionally, according to officers at the two ports we reviewed, they did not
   physically inspect any Foreign Military Sales-related exports in fiscal year 2012. CBP also
   does not have a centralized system to track Foreign Military Sales-related exports, which
   increases the risk of unauthorized exports and diminishes the efficiency of the process.
   CBP’s guidance to the ports for handling Foreign Military Sales-related shipments is
   outdated, and the component does not provide formal training to its officers on
   handling these exports. Of the USCG contracts for Foreign Military Sales articles that we
   reviewed, not all specified that they were related to the program, nor did they all
   include Foreign Military Sales requirements. Foreign Military Sales regulations do not
   require operating agencies, such as the USCG, to verify accuracy of shipment
   documentation in the Automated Export System that CBP uses to assess risk and target
   shipments for physical inspections. Therefore, the USCG may be unaware of inaccurate
   Foreign Military Sales-related shipment documentation in the system.

   We made three recommendations that, when implemented, should improve CBP’s and
   USCG’s controls over exports related to Foreign Military Sales. CBP and the USCG
   concurred with the recommendations.




www.oig.dhs.gov                                1                                       OIG-13-119
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Background
   As part of the Office of Inspector General’s (OIG) fiscal year (FY) 2013 Annual Performance
   Plan, we reviewed the Department of Homeland Security’s (DHS) controls and oversight
   of Foreign Military Sales (FMS). Within the Department, under the FMS program, the
   USCG provides defense-related articles and services to foreign countries and CBP
   controls exports of FMS-related articles.

   The USCG acts as an operating agency for the Department of Defense (DoD) to procure
   defense-related articles and services requested by foreign governments.1 DoD and
   foreign governments are responsible for associated costs; therefore, DHS does not
   directly use its appropriations to fund the USCG’s FMS-related activities.

   In the FMS process, the U.S. Navy’s International Programs Office (IPO) provides the
   USCG with a Letter of Request from a foreign government. After reviewing the request
   and determining the price, the USCG issues a Letter of Offer and Acceptance (LOA),
   describing the goods and services to be provided and their value. USCG case managers
   forward the LOA, which may involve multiple contracts to provide the defense-related
   articles or services to the U.S. Navy for approval. Prior to shipping FMS-related articles
   to a port, USCG case managers inspect and approve the shipment.

   The Department of State requires that all shippers obtain an export license for FMS-
   related shipments. Shippers must also enter shipment and license information into the
   export database, the Automated Export System (AES). When FMS-related shipments
   arrive at a port, CBP officers check AES to determine under which LOA the shipment is
   authorized, confirm that the shipper is approved by the Department of State, and
   ensure that the declared value of goods does not exceed the total authorized value of
   the LOA.

   If the shipment value exceeds the authorized LOA value by more than 10 percent or the
   documentation is not correct, the shipment may be detained or seized. If the shipment
   value exceeds the LOA value by 10 percent or less and the documentation is correct,
   CBP decrements the value of the exported goods from the LOA value, records the
   remaining value of the LOA, and may approve the shipment for export.2 According to
   CBP officials, 126,083 FMS-related shipments were exported in FY 2012, of which the


   1
     DoD is responsible for implementing the FMS program, including issuing Letters of Offer and Acceptance
   (LOA), transmitting Congressional Notifications, and monitoring end use. As an operating agency, the
   USCG works with foreign governments, subject to DoD’s review and approval.
   2
     In decrementing an FMS-related shipment, CBP subtracts the declared value of the shipment from the
   value of the Department of State license, which is the total value of goods under the LOA.

www.oig.dhs.gov                                       2                                             OIG-13-119
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Port of Baltimore Seaport and the John F. Kennedy International Airport (JFK) shipped
   4,421 and 36,199, respectively.

   In May 2009, the U.S. Government Accountability Office (GAO) issued a report on the
   Federal Government’s FMS program, Defense Exports, Foreign Military Sales Program
   Needs Better Controls for Exported Items and Information for Oversight. According to
   GAO, CBP officers did not have key information in export documentation that was
   needed to properly record the value of defense-related articles shipped under FMS
   LOAs. GAO also noted that CBP had not updated the U.S. Customs Control Handbook for
   Department of State Licenses since 2002 and was not adequately instructing its officers
   on tracking shipment and LOA values. Finally, CBP had not acted on GAO’s 2003
   recommendation to update the process for recording information on FMS-related
   shipments at ports because it did not have a centralized database to link records among
   the hundreds of ports processing such shipments. At the time of the 2009 GAO review,
   CBP planned to develop a new centralized system to automatically decrement the value
   of individual FMS-related shipments; however, at the time of our review, CBP had not
   developed the system.

   In a February 2013 report to Congress on high-risk areas of the Federal Government,
   GAO pointed out that DHS, DoD, and the Department of State still needed to improve
   internal and interagency practices to facilitate reliable shipment verification, as well as
   improve monitoring and administration of the FMS program.

   Results of Review

   CBP and the USCG need to improve their controls over the FMS export process. CBP has
   a process to assess the risk associated with exports and target shipments for physical
   inspection. However, according to CBP officers at the two ports we reviewed, no FMS-
   related exports were physically inspected in FY 2012. To assess risk and target shipments
   for physical inspection, CBP officers rely on potentially unverified and inaccurate
   information that shippers enter into AES. In addition, CBP does not have a centralized
   system to track FMS-related exports, which diminishes the efficiency of the FMS process
   and increases the risk of unauthorized FMS exports. CBP’s guidance to the ports for
   handling FMS-related shipments is outdated, and the component does not provide
   formal training to its officers on handling FMS exports. Of the USCG contracts for FMS
   articles we reviewed, not all specified that they were related to FMS, nor did they all
   include FMS requirements. Additionally, the USCG does not have access to AES.
   A USCG official said that the USCG is not required by FMS regulations to verify the
   accuracy of shipment documentation in AES.



www.oig.dhs.gov                                 3                                        OIG-13-119
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           CBP’s FMS-related Export Verification Process


           CBP has a process to assess risk and target shipments for physical inspection. A
           CBP headquarters official and port officials confirmed that FMS-related exports
           may not be targeted through this assessment and, as a result, may not be
           physically inspected. During FY 2012, at the two FMS ports we reviewed, CBP
           officers said they did not physically inspect any FMS-related shipments prior to
           being exported.

           The reliability of AES depends on the accuracy of shipper-submitted data.
           According to a CBP headquarters official, inaccurate information in AES may
           affect the accuracy of CBP’s risk assessment. CBP jointly operates AES with the
           Department of Commerce, the Department of State, other Federal agencies, and
           the export trade community. To help target shipments properly for physical
           inspection and reduce risks to national security, the information in AES should
           correctly identify shipments as FMS-related and include correct shipment values.

           CBP does not have a centralized system to track FMS-related shipments, which
           has led to a more time-consuming FMS process. For example, we tracked a
           USCG FMS-related shipment scheduled to be exported from one port for which
           the shipper had filed an export license at a different port. As a result, the CBP
           officer at the port of exit had to contact the port where the license was filed and
           wait for personnel there to review it and confirm the export was allowable, a
           process which took additional time. CBP officers at the ports we visited also said
           that they have other duties to perform, such as import inspections and outbound
           passenger screening.

           Not having a centralized tracking system also potentially increases the risk of
           exporting FMS-related articles that exceed LOA values. According to a CBP
           headquarters official, CBP does not collect or analyze FMS-related export
           information because ports use non-standardized paper-based and spreadsheet
           tracking systems. Reconciling this export-related information could prevent
           duplicate filings of export licenses. By not reconciling the information, CBP risks
           decrementing shipment values from different ports against the same LOA,
           unknowingly exceeding the value of the LOA and violating Federal laws and
           regulations.

           Following GAO’s 2009 report, CBP planned to implement an International Trade
           Data System to centrally track imports and exports. According to a CBP
           headquarters official, because the component did not have the necessary
           funding, it was unable to implement the system. Such a system could also help

www.oig.dhs.gov                                 4                                        OIG-13-119
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           CBP eliminate duplicate export licenses and reconcile data from all ports to
           ensure its accuracy.

           Conclusion

           CBP’s reliance on potentially inaccurate shipper-provided information may affect
           the accuracy of CBP’s risk assessment for targeting FMS-related shipments for
           physical inspection. Furthermore, the absence of a centralized system for
           tracking FMS-related shipments results in an inefficient process, which also
           increases the risk of potentially unauthorized exports. By improving the
           information used to target shipments and creating a centralized process for
           tracking FMS-shipments, CBP can improve its controls over the FMS process.

           Recommendation

           We recommend that the Acting Assistant Commissioner for the Office of Field
           Operations at U.S. Customs and Border Protection:

           Recommendation #1:

           Create and implement a centralized process for tracking Foreign Military Sales-
           related shipments and enhance the Foreign Military Sales export data validation
           process.

           Management Comments and OIG Analysis

           Management Comments: CBP’s Office of Field Operations (OFO) concurred with
           the recommendation. OFO, the DoD Defense Security Cooperation Agency, the
           U.S. Army, and the U.S. Navy met as a working group in May 2013 to discuss
           streamlining the FMS process. The working group is reviewing a draft process
           diagram.

           OFO is exploring the use of AES to track FMS shipments. Additionally, OFO and
           CBP’s Office of Information Technology are working to improve validation of the
           information received from freight forwarders, increasing field personnel’s access
           to all case information at every port, and enhancing the systems capabilities to
           decrement imported and exported shipments. CBP anticipates fully
           implementing corrective actions by September 30, 2015.

           OIG Analysis: CBP’s proposed actions are responsive to the recommendation.
           However, the recommendation will remain open and resolved until final
           implementation of the proposed corrective actions.
www.oig.dhs.gov                                5                                          OIG-13-119
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Guidance and Training for CBP Officers


           In response to the 2009 GAO report, CBP has updated its guidance on
           procedures for seizing FMS-related shipments; however, it has not updated the
           U.S. Customs Handbook for Department of State Licenses since 2002. As GAO
           noted, the handbook does not provide sufficient instructions to CBP officers on
           tracking shipments and LOA values. At the time of our review, a CBP
           headquarters official confirmed that a draft update had not been reviewed for
           publication or issued to the ports for implementation.

           Furthermore, during our review, CBP officers said and CBP headquarters officials
           confirmed that officers receive 2 weeks of export officer training, but it does not
           include instruction specifically addressing FMS-related shipments. CBP
           headquarters officials and officers at the ports said that officers receive informal
           FMS-related training on the job, but CBP officers said that this may not be
           effective given the limited staffing and the levels of experience with FMS at the
           various ports.

           Conclusion

           CBP’s guidance for handling FMS-related shipments is outdated. Additionally,
           CBP export officers do not receive formal FMS-specific training. By updating the
           handbook and providing formalized training on these policies and procedures,
           CBP can further improve its controls over the FMS process.

           Recommendation

           We recommend that the Acting Assistant Commissioner for the Office of Field
           Operations at U.S. Customs and Border Protection:

           Recommendation #2:

           Update the U.S. Customs Control Handbook for Department of State Licenses to
           reflect current export-related laws, regulations, and responsibilities; and provide
           formal training to CBP export officers on Foreign Military Sales policies and
           procedures.




www.oig.dhs.gov                                 6                                        OIG-13-119
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Management Comments and OIG Analysis

           Management Comments: CBP’s OFO concurred with the recommendation.

           By December 31, 2013, OFO plans to incorporate changes into the U.S. Customs 

           Service Control Handbook based on recommendations from the prior GAO and

           OIG reports. 


           On July 1, 2013, OFO began a review of existing training. It plans to establish a 

           course for CBP officers and other export staff on FMS policies and procedures. 

           Formal training is expected to be completed by December 2014, after revisions 

           to the handbook are finished.


           OIG Analysis: CBP’s proposed actions are responsive to the recommendation. 

           However, the recommendation will remain open and resolved until final 

           implementation of the proposed corrective actions. 


           The USCG’s FMS Contracts and Access to AES

           During the audit survey we conducted a limited review of USCG FMS case files.
           The case files we reviewed indicated that not all USCG FMS contracts specified
           that the contract was for FMS articles, nor did they all specifically require the
           contractor to comply with applicable FMS laws and regulations. In addition, the
           USCG does not have access to AES, is not required to and does not verify the
           accuracy of AES information, and may be unaware of inaccurate FMS-related
           shipment documentation in the system.

           For example, documentation in one case file showed that the USCG was to
           supply a package of FMS-related tools to a foreign country. The USCG
           contracted with a company to provide the tools, but the contract did not identify
           the tools in the shipment as FMS. The company subsequently subcontracted
           with a commercial shipper to send the tools to the foreign country. Our review
           of the shipment documentation showed that CBP had not decremented the
           value of the shipment from an FMS export license because neither the
           contractor nor the subcontracted commercial shipper had identified the tools as
           part of an FMS shipment. Ultimately, the commercial shipper was responsible
           for following FMS-related export laws and regulations and ensuring accurate
           information was entered into AES, but unless shipments are properly identified
           as FMS at the beginning of the process, the shipper may not be held
           accountable. As a result, there is a risk that FMS-related shipments may not be
           exported according to applicable laws and regulations.



www.oig.dhs.gov                                 7                                        OIG-13-119
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Changes to USCG contracting practices could help to ensure that FMS-related
           shipments are properly documented. As a result of our review, USCG officials
           said that they would revise their future FMS contracts to include information
           explicitly identifying the shipment as FMS and also include the related export
           requirements.

           Conclusion

           USCG’s contracts for FMS-related items did not always specify that the items
           being procured were part of an FMS agreement, nor did they always include a
           requirement to comply with FMS-related laws and regulations. Furthermore, the
           USCG does not have access to AES or verify that USCG-contracted shippers
           correctly enter FMS export information into AES. By changing these contracting
           practices and verifying AES information for USCG-contracted FMS shipments, the
           USCG can better ensure that FMS items are properly shipped and documented.

           Recommendation

           We recommend that the Chief of the Office of International Acquisitions for the
           United States Coast Guard:

           Recommendation #3:

           Require future USCG contracts related to Foreign Military Sales to specify that
           the contents are being shipped under the Foreign Military Sales program, and
           require shippers to verify that shipments have been identified as Foreign Military
           Sales in the Automated Export System.

           Management Comments and OIG Analysis

           Management Comments: The Chief of the Office of International Acquisitions
           for the USCG concurred with the recommendation. The USCG will ensure that its
           future contracts related to FMS include specific language (1) that the contents
           are being shipped under the FMS program and (2) that shippers verify the
           shipments have been identified as FMS in AES. The USCG expects to fully
           implement these changes by September 30, 2013.

           OIG Analysis: The USCG’s proposed actions are responsive to the
           recommendation. However, the recommendation will remain open and resolved
           until final implementation of the proposed corrective actions.



www.oig.dhs.gov                                8                                       OIG-13-119
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our limited review to determine whether DHS has
   adequate controls over the FMS program. We conducted this review between
   November 2012 and April 2013. We are providing the findings and recommendations
   identified during our limited review for CBP and the USCG to consider.

   As part of our review, we analyzed the USCG and CBP FMS processes. We reviewed the
   GAO report, Defense Exports, Foreign Military Sales Program Needs Better Controls for
   Exported Items and Information for Oversight, issued in May 2009, and GAO report,
   GAO’s 2013 High-Risk Series, An Update, issued February 2013. We interviewed GAO
   officials to determine the status of CBP’s responses to its recommendations. We
   analyzed the DoD Defense Security Cooperation Agency’s published guidance; the
   electronic Security Assistance Management Manual, dated April 30, 2012; and the CBP
   U.S. Customs Control Handbook for Department of State Licenses, dated July 2002. We
   also reviewed relevant Federal regulations on FMS.

   We interviewed an official in the DHS Office of the Chief Readiness Support Officer; DoD
   Defense Transportation System personnel who oversee DoD’s transportation of assets,
   including FMS; personnel from the U.S. Navy’s International Program Office and Naval
   Supply System Command; USCG Office of International Acquisition officials; CBP
   headquarters Outbound Enforcement officials; as well as CBP officers at the Port of
   Baltimore Seaport and the JFK International Airport. We reviewed 4 of 97 open USCG
   FMS case files during our audit survey. Our review included documentation of the
   entire FMS process, such as Letters of Request, LOAs, shipping declarations,
   communications with the requesting country, and inspection checklists.

   OIG staff also directly observed an FMS shipment in transit at the Port of Baltimore
   Seaport and verified shipment documentation at JFK Airport. CBP’s OFO provided FY
   2011 and FY 2012 export data. Because it was a limited review, the OIG audit team did
   not verify or test this data. Based on information obtained during the audit survey, we
   determined our findings were consistent with previous reviews and continuing the audit
   was not appropriate due to current fiscal budget constraints.


www.oig.dhs.gov                               9                                      OIG-13-119
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We conducted this review under the authority of the Inspector General Act of 1978, as
   amended, and according to the Quality Standards for Inspection and Evaluation issued
   by the Council of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                              10                                     OIG-13-119
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                               U.S. Dcpartmtut of llomtland Stcurit)
                                                                                               Washin:;ton, DC 20528



                                                                                              Homeland
                                                                                              Security
                                                               July 15,20 13


                  MEMORANDUM FOR:                 Anne L. Richards
                                                  Assistant Inspector General for Audits
                                                  Office of Inspector General

                  FROM:                           Ji~n H. Crumpacker \     ~I ~ 0
                                                  Darcctor           ~\._.!,\,.. ~
                                                  Departmental GAO-Oib Liaison fice

                  SUBJECT:                        OJG Draft Report: "U.S. Customs and Border Protection's
                                                  (CBP's) and U.S. Coast Guard's (USCG's) Controls Over Exports
                                                  Related to Foreign Military Sales"
                                                  (Proj ect No. 13-060-AUD-DHS)

                  Thank you tor the opportunity to review and comment on th is draft report. The U.S. Department
                  of Homeland Security (DHS) appreciates the Office of Inspector General's (OIG's) work in
                  platming and conducting its review and issuing this report.

                  The Department's primary responsibili ty for Foreign Military Sales (FMS) is export
                  enforcement. CBP officials, particularly those at ports, work in close cooperation with officials
                  from several other Departments to enforce export laws and regulations. Other federal partners
                  are:: re::sponsihle:: fhr the:: regulations governing data, data quality, and availability of data to CBP
                  port officials. If data quality and access to additional data were improved, DHS might be able to
                  enhance monitoring and controls over FMS without requinng additional resources. DHS
                  appreciates OIG's effort to highlight in the draft report the many challenges associated with the
                  enforcement of FMS exports via a paper-based system furtl1er complicated by the availability of
                  increasingly scarce and limited resources.

                  CBP continues to work with stakeholders in the Departments of State, Defense (DOD),
                  Commerce, and Justice to improve export control, monitoring systems, and intelligence. This is
                  accomplished by sharing intelligence; improving delineation of each agt:ncy's j ur isdiction; and
                  clarifying guidance, responsibilities, and expectations for all stakeholders, including industry.
                  DHS appreciates OlG's insights regarding the development of an automated management
                  information system that would improve:: CBP Officers' (CBPOs') access to the data necessary to
                  determine if documentation for a shipment is accurate and ensure the shipment is exported under
                  the appropriate regulations and controls.

                  The draft report initially contained four recommendations. Subsequent to clarifications made
                  duri ng and afle::r the:: exit con ference, OIG agreed to remove one of the recommendations and
                  revise another. The Department concurs with the three agreed upon reconunendations.
                  Specifically OIG recommended that the:




www.oig.dhs.gov                                                     11                                                                 OIG-13-119
                                           OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security




                  Recommenda tion 1: Acting Assistant Commissioner for the Office of Field Operations at U.S.
                  Customs and Border Protection create and implement a centralized process for tracking Foreign
                  Military Sales-related shi pments, and enhance the Foreign Military Sales export data validation
                  process.

                  Response: Concur. CBP's Office of Field Operations (OFO) fully understands the importance
                  of having correct and reliable Electronic Export Information (EEl) data on the targeting of high-
                  risk shipments.' CBP OFO is responsible for enforcement of the International Traffic in Arms
                  Regulations (IT AR) for FMS shipments. Where incorrect data are found in the Automated
                  Export System (AES), CBP OFO takes the appropriate enforcement actions, ensuring informed
                  compliance. outreach with the trade community, and, where necessary, seizure of the cargo.

                  CBP OFO is currently exploring the usc of the AES to track FMS shipments by using
                  information similar to data OFO receives on Department of State (DOS) forms DSP-5
                  ("Application/License for Permanent Export of Unclassified Defense Articles and Related
                  Unclassified Technical Data"). Additionally, to improve validation of the information received
                  from the freight forwarders on FMS shipments, OFO and CBP's Office of Information and
                  Technology will incorporate a series of edit functions in AES to validate the infonnation
                  received. By using this information, field personnel will have access to all the case information
                  at any port and the system would decrement the import and/or exported shipments.

                  Specific actions already taken or planned to implement this recommendation are outlined below:

                           •   In May 2013, a working group was established consisting of representatives from
                               OFO, and the DOD Defense Security Cooperation Agency (DSCA), the U.S. Army,
                               and the U.S. Navy, to streamline the FMS process and work toward form ulating a
                               process that would allow for electronic submission of key data elements in FMS cases
                               to AES, including identifying the appropriate data elements.

                           •   On June 6, 2013 , the working group disseminated a diagram of the process discussed
                               by the group to its members for review and response.

                           •   To further streamline the FMS process, eliminating DOS Form 94 ("Authority to
                               Export Defense Articles Sold Under The Foreign Military Sales Program") from the
                               process was proposed. CBP OFO and DSCA plan to schedule meetings with DOS to
                               discuss potential regulatory changes that would be necessary to make this proposed
                               change. The target date for the first meeting is on or before July 31, 2013.

                           •   The AES is currently being re-cnginccred in an effort to update software and to
                               improve functionali ty. OFO plans to usc the rc-engineered AES to have the system
                               decrement the FMS case on the basis of data pulled from the Letter of Offer and
                               Acceptance (LOA}. AES will be programmed to incorporate a series of edits to

                  1
                    Under the Foreign Trade Regulauons (IIR), the filing c'portcr or their filing agem is responsible for tiling the
                                                                                     *
                  correct mforrnation about FMS shipments. Pursuan110 15 C.F.R. 30.71. fa, lure 10 file correct daln is an FTR
                  \IOia110n and make> the tiler subject to potenual penalues m the an10un1 ofSIO ,OOO prio r to any m11lga1ion.
                                                                                                                                       2




www.oig.dhs.gov                                                          12                                                                OIG-13-119
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                              validate that the inforn1ation being received from the EEl filers is a specific FMS
                              LOA and is going to the country designated o n the LOA. This will be scheduled to
                              begin after January I, 201 4, and will be on-going through implementation. Current
                              budget constraints could delay this process.

                  Estimated Completion Date (ECD): September 30, 20 15.

                  R ecommenda tion 2: Acting Assistant Commissioner for the Office of Field Operations at U.S.
                  Customs and Border Protection update the U.S. Customs Control Handbook for Departmem of
                  State Licenses to reflect current export-related laws, regulations, and responsibilities; and
                  provide formal training to CBP export officers on Foreign Military Sales policies and
                  procedures.

                  R espo nse: Concur. DOS has published a number of proposed regulations in conjunction with
                  the Department of Commerce to move certain commodities from the U.S. Munitions List, ITAR
                  to the Commerce Control List and improve Export Administration Regulations. Additionally,
                  DOS has created two new license exemptions based on Defense Trade Treaties with the United
                  Kingdom and Australia, and modified the license exemption to !TAR-controlled goods being
                  exported to Canada.

                  CBP OFO will revise the U.S. Customs Service Control Ilandbook to incorporate these changes
                  and to reflect the recommendations identified in both a recent U.S. Government Accountability
                                      2
                  Office audit report regarding FMS exports and this OIG report. ECD: December 31, 2013.

                  In addition, CBP OFO began a review of existing training on July I, 2013, and will establish a
                  course for training C BPOs and other export staff on FMS policies and procedures. OFO will
                  begin providing fonnaltraining to export officers on FMS policies and procedures once the
                  revisions to the handbook are completed. ECD: December 3 1, 2014.

                  Recommendation 3: Chief of the Office o f International Acquisitions for the United States
                  Coast Guard require future USCG contracts related to Foreign Military Sales to specify that the
                  contents are being shipped under the Foreign Military Sales program, and require shippers to
                  verify that shipments have been identified as Foreign Military Sales in the Automated Export
                  System.
                  Response: Concur. The Chief of the Office of International Acquisitions for USCG will ensure
                  that future USCG contracts related to FMS include language specifying that: (I) the contents arc
                  being shipped under the FMS program, and (2) shippers will be required to verify that sh ipments
                  have been identified as FMS in the AES. ECD: September 30, 2013.
                  Again, thank you for the opportunity to review and comment on this draft report. Technical
                  comments were previously provided under separate cover. Please feel free to contact me if you
                  have any questions. We look forward to working with you in the future.



                  ' DEFENSE EXPORTS: "Foreign l\lohtary Sales Pro~:rom Needs Better Controls for Exponed Items a nd
                  lnfonnation for 0\ersight." (GA0-09-454. May 20. 2009) Wa,hongton. D.C.
                                                                                                                      3




www.oig.dhs.gov                                                     13                                                    OIG-13-119
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Alex Best, Director
   Cecilia Carroll, Audit Manager
   Thomas J. Bobrowski, Audit Lead
   Douglas Campbell, Program Analyst
   Falon Newman-Duckworth, Program Analyst
   Heidi Einsweiler, Program Analyst
   Kelly Herberger, Communications Analyst
   Sharon Trodden, Independent Referencer




www.oig.dhs.gov                         14                    OIG-13-119
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   Under Secretary for Management
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Commandant, United States Coast Guard
   Acting Chief Privacy Officer
   Acting Commissioner of Customs and Border Protection
   Chief Procurement Officer, DHS
   Chief Information Officer, DHS
   Audit Liaison, CBP
   Audit Liaison, USCG

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   U.S. Senate Committee on Appropriations
   U.S. House of Representatives Committee on Appropriations
   U.S. Senate Homeland Security and Governmental Affairs Committee
   U.S. Senate Committee on Finance
   U.S. Senate Committee on the Judiciary
   U.S. House of Representatives Committee on Homeland Security
   U.S. House of Representatives Committee on Government Reform
   U.S. House of Representatives Committee on Transportation and Infrastructure



www.oig.dhs.gov                             15                                    OIG-13-119
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
